                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

I   Case Number: A05080061                                                                    Page 1 of 1



                 Our office investigated an allegation that an NSF proposal contained text copied from
         several sources. The subject' ascribes the copied text in the proposal2 to a doctoral student who
         assisted in the preparation of the proposal. We contacted the student, who had moved overseas,
         and confirmed his involvement in preparation of the proposal, and his provision of text without
         proper citation or reference.

                 We also found a small amount of copied text in a second proposal.3 The text is
         accompanied by a reference to its source, but there is no citation for the directly copied words
         and no quotation marks around them. The subject claims that the appearance of the reference
         the subject made clear that he was not claiming credit for the work described. Although the
         subject's actions represent a questionable research practice, we determined that the facts in this
         case do not rise to the level of research misconduct. We wrote to the subject sternly
         recommending that he invoke the highest scholarly standards in his future NSF proposals.

                    Accordingly, this case is closed.




          '   Redacted
              Redacted
          3
              Redacted




NSF OIG Form 2 (1 1/02)
